      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Washington, D.C. 20201




September 30, 2011

TO:            George Sheldon
               Acting Assistant Secretary
               Administration for Children and Families


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Rollup Review on States’ Reporting of Undistributable Child Support Collections
               as Program Income (A-05-11-00025)


The attached final report provides the results of our rollup review on States’ reporting of
undistributable child support collections as program income.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-05-11-00025 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  ROLLUP REVIEW ON STATES’
REPORTING OF UNDISTRIBUTABLE
CHILD SUPPORT COLLECTIONS AS
      PROGRAM INCOME




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-05-11-00025
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Child Support Enforcement Program (program) is a Federal, State, and local partnership,
established in 1975 under Title IV-D of the Social Security Act, to collect child support
payments from noncustodial parents for distribution to custodial parents. Within the
U.S. Department of Health and Human Services, Administration for Children and Families
(ACF), the Office of Child Support Enforcement (OCSE) provides Federal oversight of the
program.

An undistributable child support collection occurs when the State agency receives a child support
payment but cannot identify or locate the custodial parent or return the funds to the noncustodial
parent. The OCSE Policy Interpretation Question (PIQ)-88-7 and OCSE-PIQ-90-02 require
States to offset program costs by recognizing and reporting undistributable child support
collections as program income at the time the funds are considered abandoned under State law.
OCSE-PIQ-90-02 states: “Every State has statutes and regulations governing the handling of
unclaimed or abandoned property left in its care. OCSE-PIQ-88-7 ... recognizes this fact and
encourages each State to utilize these individual State procedures to report undistributable or
uncashed ... collections as title IV-D program income.”

States report undistributable collections and program income quarterly on Federal Forms
OCSE-34A, Child Support Enforcement Program Collection Report, and OCSE-396A, Child
Support Enforcement Program Expenditure Report, respectively.

OBJECTIVES

Our objectives were to summarize the results of our 23 previous audits examining treatment of
undistributable child support and identify any systemic problems affecting multiple States.

SUMMARY OF FINDINGS

In our 23 previous audits, we found that 21 States did not recognize and/or report undistributable
child support collections as program income in accordance with Federal requirements.
Specifically:

   •   17 States did not recognize and report undistributable child support collections totaling
       $32,799,395 ($21,295,917 Federal share) as abandoned and

   •   14 States did not report $16,641,320 ($11,040,014 Federal share) as program income
       after the States recognized the funds as undistributable child support collections.

These deficiencies occurred because States did not classify undistributable child support
collections as abandoned and/or did not require that abandoned property be transferred to the
States’ abandoned-property accounts. In addition, certain States were not aware of OCSE’s
reporting requirements.


                                                i
RECOMMENDATIONS

We recommend that ACF either:

   •   develop a uniform Federal policy for reporting undistributable child support as program
       income that does not rely on States’ definitions of abandoned property

       or

   •   provide increased oversight of States to ensure the appropriate reporting of outstanding
       undistributable child support collections that qualify as abandoned property and

   •   issue guidance that collections determined to be undistributable should be reclassified
       and reported as program income when the State, in accordance with State laws and
       regulations, defines these funds as abandoned.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF stated that it is addressing the issue of
undistributable child support collections in response to our work and will provide policy
guidance and reiterate its reporting requirements. ACF’s comments are included in their entirety
as Appendix B.




                                                ii
                                                TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1
       Child Support Enforcement Program....................................................................1
       Requirements for Reporting Program Income ......................................................1
       Office of Inspector General Reviews of
        Undistributable Child Support Collections ........................................................1

     OBJECTIVES, SCOPE, AND METHODOLOGY ....................................................2
       Objectives .............................................................................................................2
       Scope .....................................................................................................................2
       Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .................................................................2

     FEDERAL REQUIREMENTS ...................................................................................2

     UNDISTRIBUTABLE CHILD SUPPORT COLLECTIONS
     NOT CLASSIFIED AS ABANDONED PROPERTY ...............................................3

     UNDISTRIBUTABLE CHILD SUPPORT COLLECTIONS
     NOT REPORTED AS PROGRAM INCOME ...........................................................4

     CONCLUSION ...........................................................................................................4

     RECOMMENDATIONS ............................................................................................5

     ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ...............5

APPENDIXES

     A: UNREPORTED CHILD SUPPORT ENFORCEMENT PROGRAM INCOME

     B: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Child Support Enforcement Program

The Child Support Enforcement Program (program) is a Federal, State, and local partnership,
established in 1975 under Title IV-D of the Social Security Act, to ensure that noncustodial
parents support their children. Under the program, State and local entities collect child support
payments from noncustodial parents and distribute the payments to custodial parents. Within the
U.S. Department of Health and Human Services, Administration for Children and Families
(ACF), the Office of Child Support Enforcement (OCSE) sets program standards and policy,
evaluates performance, offers technical assistance, and reimburses States for a portion of their
program costs.

Requirements for Reporting Program Income

An undistributable child support collection occurs when the State agency receives a child support
payment but cannot identify or locate the custodial parent or return the funds to the noncustodial
parent. The OCSE Policy Interpretation Question (PIQ)-88-7 and OCSE-PIQ-90-02 require
States to offset program costs by recognizing and reporting undistributable child support
collections as program income at the time the funds are considered abandoned under State law.
OCSE-PIQ-90-02 states: “Every State has statutes and regulations governing the handling of
unclaimed or abandoned property left in its care. OCSE-PIQ-88-7 ... recognizes this fact and
encourages each State to utilize these individual State procedures to report undistributable or
uncashed ... collections as title IV-D program income.”

States report undistributable collections and program income quarterly on Federal Forms
OCSE-34A, Child Support Enforcement Program Collection Report, and OCSE-396A, Child
Support Enforcement Program Expenditure Report, respectively.

Office of Inspector General Reviews of Undistributable Child Support Collections

We conducted 23 reviews 1 to determine whether 21 State agencies appropriately reported
program income for undistributable child support collections. In our reviews, undistributable
child support collections included (1) child support collections that could not be identified with
or disbursed to the custodial parent or returned to the noncustodial parent and (2) checks for
child support collections that were disbursed to the recipient but not cashed. (See Appendix A
for a chart of unreported program income.)




1
    We reviewed three counties in California.


                                                     1
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to summarize the results of our 23 previous audits examining treatment of
undistributable child support and identify any systemic problems affecting multiple States.

Scope

Our prior reviews covered various periods from October 1, 1998, through December 31, 2007.
We conducted our fieldwork at the respective State agencies from March 2004 through July
2008.

Methodology

To accomplish our objectives, we analyzed the findings and recommendations from our prior
reviews.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

In our 23 previous audits, we found that 21 States did not recognize and/or report undistributable
child support collections as program income in accordance with Federal requirements.
Specifically:

   •    17 States did not recognize and report undistributable child support collections totaling
        $32,799,395 ($21,295,917 Federal share) as abandoned and

   •    14 States did not report $16,641,320 ($11,040,014 Federal share) as program income
        after the States recognized the funds as undistributable child support collections.

These deficiencies occurred because States did not classify undistributable child support
collections as abandoned and/or did not require that abandoned property be transferred to the
States’ abandoned-property accounts. In addition, certain States were not aware of OCSE’s
reporting requirements.

FEDERAL REQUIREMENTS

An undistributable child support collection occurs when the State agency receives a child support
payment but cannot identify or locate the custodial parent or return the funds to the noncustodial
parent. In OCSE-PIQ-90-02, dated March 1, 1990, OCSE explains that “[u]ndistributable


                                                 2
collections result when the State IV-D agency receives a child support payment and is unable to
identify and locate either the obligor (the absent parent) or the obligee (the custodial parent).”
This guidance further states that “[c]ollections determined to be undistributable should be
reclassified and reported as program income when the State, in accordance with State law,
defines these funds to have been abandoned.” In the absence of Federal regulations defining
when a child support collection should be considered undistributable and reported as program
income, OCSE guidance defers to State abandoned-property laws. Pursuant to OCSE guidance,
once collections are considered abandoned, the funds must be reported as program income. By
recognizing and reporting undistributable child support collections as program income, program
costs are offset.

UNDISTRIBUTABLE CHILD SUPPORT COLLECTIONS NOT CLASSIFIED AS
ABANDONED PROPERTY

Seventeen States did not follow their own laws for classifying undistributable collections totaling
$32,799,395 ($21,295,917 Federal share) as abandoned and/or for transferring the collections to
an abandoned-property fund. Had these collections been appropriately classified and transferred,
they could have been reported as program income.

Even though State laws define abandoned property, some States have avoided or circumvented
their laws by not classifying undistributable child support collections as abandoned or not
requiring that abandoned property be transferred to the State’s abandoned-property account.
Consequently, these States have delayed and, in some cases, avoided recognizing and reporting
undistributable child support collections as abandoned property and program income. For
example:

   •   One State agency’s procedures permitted it, under certain circumstances, to defer
       reporting undistributed child support collections that met the State’s definition of
       abandoned property. Under these circumstances, the State agency could have suspended
       further efforts to identify the custodial or noncustodial parent after a collection was
       classified as a “deferred receipt.” These deferral procedures were not consistent with the
       State Property Code’s abandoned property provisions and could have been used
       indefinitely to postpone a determination that a property owner’s location was unknown.

   •   One State’s statutes provided that undisbursed or unidentified payments must be
       maintained in the child support trust fund payments account for 3 years. If after 3 years
       the State agency was unable to locate or identify the custodial parent or return the funds
       to the noncustodial parent, the State agency could use those funds for specific public
       outreach purposes. The State agency stated in its comments on our draft audit report that
       under State law, collections were not considered abandoned after 3 years but would
       become “truly undistributable” only if the State agency “made every effort in exercising
       due diligence to locate the parents who have first claim on the undistributed funds, ...”
       which could take much longer than 3 years.

   •   One State agency did not consider undistributable child support collections to be State
       funds and, therefore, considered them exempt from the State’s abandoned-property laws.


                                                 3
       The State code did not contain any specific provision exempting child support collections
       from the abandoned-property laws.

   •   In 10 States, undistributable child support collections processed through the States or
       counties were not reported as abandoned property under the applicable laws. Child
       support payments made at the State and local levels met the States’ definitions of
       abandoned property but were not transferred to the States’ abandoned-property funds.

In addition, one State specifically excluded child support collections from its definition of
abandoned property. Therefore, the State agency did not, nor was it required to, report any
undistributable child support collections to OCSE as program income. We canceled our review
in this State without issuing a report because the State was technically in compliance with
OCSE-PIQ-88-7 and OCSE-PIQ-90-02.

Overall, the States did not have adequate controls, policies, and procedures necessary to ensure
that undistributable child support collections were reported in accordance with Federal and State
reporting requirements, which involves identification, transfer, and reporting of undistributable
child support collections as program income quarterly. In addition, some States were not aware
of OCSE’s reporting requirements.

UNDISTRIBUTABLE CHILD SUPPORT COLLECTIONS NOT REPORTED AS
PROGRAM INCOME

Fourteen States did not report program income totaling $16,641,320 ($11,040,014 Federal share)
for unclaimed collections that were identified as abandoned and transferred to the States’
abandoned-property funds. The States did not report these unclaimed collections as
undistributable collections on Form OCSE-34A or program income on Form OCSE-396A.

Generally, the States did not have adequate controls, policies, and procedures necessary to ensure
that undistributable child support collections were reported as program income quarterly in
accordance with Federal reporting requirements.

CONCLUSION

By deferring to State laws and regulations related to abandoned property, ACF’s policy for
determining when child support is undistributable has allowed States to underreport program
income, causing the Federal Government to reimburse States more than their fair share of
program costs. As demonstrated throughout our reviews and as detailed in the examples above,
States have avoided or delayed reporting these collections as program income through their
interpretation and enforcement of abandoned-property laws. At least one State has specifically
excluded child support collections from its definition of abandoned-property. As a result, under
ACF policy, this State has no responsibility to report undistributable child support collections as
program income.




                                                 4
RECOMMENDATIONS

We recommend that ACF either:

   •   develop a uniform Federal policy for reporting undistributable child support as program
       income that does not rely on States’ definitions of abandoned property

       or

   •   provide increased oversight of States to ensure the appropriate reporting of outstanding
       undistributable child support collections that qualify as abandoned property and

   •   issue guidance that collections determined to be undistributable should be reclassified
       and reported as program income when the State, in accordance with State laws and
       regulations, defines these funds as abandoned.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF stated that it is addressing the issue of
undistributable child support collections in response to our work and will provide policy
guidance and reiterate its reporting requirements. ACF’s comments are included in their entirety
as Appendix B.




                                                5
APPENDIXES
                 APPENDIX A: UNREPORTED CHILD SUPPORT ENFORCEMENT
                                  PROGRAM INCOME

                                                                               Undistributable
                                                         Undistributable         Collections     Unreported
                                                    Collections Not Classified Not Reported as    Program
                                                    as Abandoned Property 2 Program Income 3       Income
             State             Report Number 1           (Federal Share)       (Federal Share) (Federal Share)
California
    Los Angeles County          A-09-08-00024                              $0                  $0                $0
      Orange County             A-09-06-00040                       1,431,460               1,987         1,433,447
       Riverside County         A-09-07-00049                           2,332              20,372            22,704
Colorado                        A-07-07-04106                           5,502                   0             5,502
Connecticut                     A-01-06-02502                       1,066,738                   0         1,066,738
Florida                         A-04-06-03508                               0            459,889           459,889
Georgia                         A-04-06-03506                               0            237,789           237,789
Illinois                        A-05-04-00039                         752,366          1,090,454          1,842,820
Indiana                         A-05-06-00038                         871,677            429,373          1,301,050
Kentucky                        A-04-06-03507                       1,346,897                   0         1,346,897
Maryland                        A-03-06-00565                       1,876,116            286,132         2,162,248
Massachusetts                   A-01-06-02500                       1,300,000                   0        1,300,000
Michigan                        A-05-05-00033                       4,397,133            997,916         5,395,049
Minnesota                       A-05-06-00023                          28,240                   0            28,240
Mississippi                     A-04-07-03515                         612,013                   0          612,013
Missouri                        A-07-05-03069                         218,578            238,550           457,128
Nebraska                        A-07-06-03085                          84,753            224,088           308,841
New Jersey                      A-02-06-02005                               0              14,601            14,601
             4
New York                        A-02-07-02005                                0         4,876,580          4,876,580
Ohio                            A-05-04-00075                         330,233          1,894,291          2,224,524
Tennessee                       A-04-08-03521                       5,768,243                   0         5,768,243
Texas                           A-06-06-00088                       1,120,671            243,574          1,364,245
Wisconsin                       A-05-06-00018                          82,965              24,418          107,383
        Total                                                    $21,295,917         $11,040,014       $32,335,931
Program = Child Support Enforcement Program.


1
    These reports, except for New York’s, are available at http://oig.hhs.gov.
2
 Undistributable child support collections that the State agency did not recognize as abandoned property or report as
program income.
3
 Undistributable child support collections that the State agency identified as abandoned property but did not report
as program income.
4
 The Office of Child Support Enforcement Audit Division completed the audit of New York in partnership with the
Office of Inspector General. The Office of Inspector General did not issue a report for New York.
                                                                  Page 1 of 3
      APPENDIX 8: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS
            ,
      D'EPAR1'MENT,OF HEALTH &. HUMAN SERVICES

                                                          ..------,~~~~ \'
                                                                                                                  I
                                                          ADMINISTRATION FQR CHILDREN AND FAMILIES 

                                                          Office of the Assi~tarii ~,ecr~tafy, Suite 600 -· ',; 1: 

                                                          370 L'Enfant .Promenape, ~.W. 


                AUG 2 2 2011
                                                          Washington, D.C. ~7                                     r



      TO:          . Daniel R. ~vinson
                     Inspector General

      FROM:         George.H. Sheldon
                    Actmg AssistaQt$ecretat}'J
                    , JotChJldfeh, ~d 'Fami1i .

      SUBJEcT:      Office Qf'rnspector General s (OlG) Draft Report titled, "Rollup Review
                    on S!ates' Reporting of Undistributable C.hiid Support CollectioJlS as
                    ~rogram Inco~e" (A-05-11-00075)



      Attached are comments of the Administration for Children and Families on the
      above-referenced 01G draf! report.

      Should you have ,questiop,s regarding our comments, please contact Vicki Turetsky,
      Commissioner, Office of Child Support Enforcement, at (202) 401-9369.

      Attachment




r.
I
j
!
1
<

1J
! •
1
                                                                                                          Page 2 of 3




COMMENTS OF THE ADMINISTRATION FOR CllI.LDREN AND· FAMILIES ON
THE OFFICE OF INSPECTOR GENERAL DRAFT REPORT TITLED. "ROLLUP
REVIEW ON STATES' REPORTING OF UNDISTRIBUTABLE CmLD SUPPORT
COLLECTIONS AS PROGRAM INCOME" (A-05-11;..000251


The Administration for Children and Families (ACF) appreciates the opportUnity to comment on
the above-mentioned Office of Inspector General (OIG) draft report.

OIG Summary of Findings

In our 23 previous audits, we found that 21 States did not recognize and/or report undistributable
child support collections as program income in accordance with Federal requirements.
Spe~ifically:


   • 	 17 States did not recognize and report undistributable child support collections totaling
       $32;799,395 ($21,295,917 Fedeialshare) as abandoned and           .

   • 	 14 States did not report $16,641,320 ($11,040,014 Federal share) as program income
       after the States recognized the funds as undistributable child support collections.

These deficiencies occurred because States did not classify undistributable child support
collections as abandoned and/or did not require that abandoned property be transferred to the        -'
States' abandoned-property accounts. In addition, certain States were not aware ofOCSE's
reporting requirements.

DiG Recommendations

We recommend that ACF either:

   • 	 develop a uniform Federal policy for reporting undistributable child support as program
       income that does not rely on States' defmitions of abandoned prop.erty

       or

   • 	 provide increased oversight of States to ensure the appropriate reporting of outstanding
       undistributable child support collections that qualify as abandoned property and .

   • 	 issue guidance that collections determined to be undistributable should be reclassified
       and reported as program income when the State, in accordance with State laws and
       regulations, defmes these funds as abandoned.
                                                                                                         Page 3 of 3




ACF Comments
                                                                                     stributable child
The Office of Child Support Enforcement (OCSE) is addressing the issue ofundi
                                                                                    regulation titled,
support collections in response to the work of DIG. OCSE is developing anew
                                                                ed  early in  2012.  In the preamble
"E;fficiency in Child Support," which is expected to be publish
                                                                             t agencie s to ptovide ,
of the Notice of Proposed Rulemakirig, OCSErequests state child suppor
infonnation about their policies andprogedures on both undistributabl~ and abando
                                                                                        ned
                                                         further official policy  guidan  ce and
collections. OCSE will use tb,is information to provide
reit~rate its reporting requirements.




                                            .J
